                JOINT
            AUDIT REPORT


                    Military Health System

           Utilization Management Program
                     at Medical Centers
Report No. 98-136                            May 22,199s
  Additional Information and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 6048937 (DSN 664-8937) or FAX (703) 6048932 or visit the Inspector
  General, DOD Home Page at: WWW.DODIG.OSD.MIL.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support Directorate
  at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
  can also be mailed to:
           OAIG-AUD (ATTN: APTS Audit Suggestions)
           Inspector General, Department of Defense
           400 Army Navy Drive (Room 801)
           Arlington, Viiginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
   424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL; or by
  writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AMC                  Army Medical Center
AWW                  Assistant Secretary of Defense (Health Affairs)
CHAMPUS              Civilian Health and Medical Program of the Uniformed Services
DRG                  Diagnostic-Related Group
FTE                  Full Time Equivalent
MC                   Medical Center (Air Force)
MEDCEN               Medical Center
                     Magnetic Resonance Imaging
NMC                  Naval Medical Center
GASDQ=)              Ofke of the Assistant Secretary of Defense (Health Affairs)
                     Utilization Management
                                   INSPECTOR GENERAL
                                   DEPARTMENT    OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                   ARLINGTON. VIRGINIA 22202

                                                                            May 22, 1998


MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (HEALTH
                 AFFAIRS)
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Joint Audit Report on the Military Health System Utilization
         Management Program at Medical Centers (Report No. 98-136)


        We are providing this audit report for review and comment. This audit was
requested by representatives from the Office of the Assistant Secretary of Defense
(Health Affairs) and the Military Surgeons General and was performed as a joint effort
by the Office of the Inspector General, DOD; Army Audit Agency; Naval Audit
Service; and Air Force Audit Agency.

         DOD Directive 7650.3 requires that all recommendations be resolved promptly.
Because the Assistant Secretary of Defense (Health Affairs) did not comment on a draft
of this report, we request that management provide comments on the final report by
July 22, 1998.

       We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Michael A. Joseph, email <mjoseph@dodig.osd.mil> , or
Mr. Sanford Tomlin, email < stomlin@dodig.osd,mil > , at (757) 766-2703. See
Exhibit F for the report distribution. The joint audit team members are listed inside the
back cover.




            Robert j. Lieberman                             Thomas W. Brown
        Assistant Inspector General                       Deputy Auditor General
                for Auditing                    Acquisition and Force Management Audits
   Office of the Inspector General, DOD                    Army Audit Agency




           Jonathan Kleinwaks                                   Earl J. Scott
          Director of Production                         Assistant Auditor General
           Naval Audit Service                        (Financial and Support Audits)
                                                         Air Force Audit Agency
                     Table of Contents
Executive Summary ....................................................................                                                                                        i

        What We Audited .......................................................................................                                                               i

        Objectives and Conclusions ........................................................................                                                                   i


Section A: General Information ... ...... ... ... ........ ... .. ... ........ .. ... .. ...                                                                                  1

        Background ................................................................................................                                                           1

        Audit Scope and Methodology                          ...................................................................                                              3


Section B: Finding and Recommendations .. ... ..... .. .....m............                                                                                                    5

        Increasing Utilization Management                           Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    5



Exhibits

        A. DOD MEDCENs ..................................................................................                                                                    19

        B. UM Innovations.. ..................................................................................                                                               20

        C. UM Procedures                 ....................................................................................                                                23

        D. DRGs and Clinical Specialties Reviewed ...............................................                                                                            26

        E. Summary of StafIing at the Six MEDCENs Visited.. .............................                                                                                    27

        F. Report Distribution,. .............................................................................                                                               28
                 Joint Audit Planning Group for Health Care

Report No. 98-136                                                                          May 22,199s
    (Project No. 7LF-3005.01)


         Military Health System Utilization Management
                   Program at Medical Centers



               Executive Summary
What We Audited

    This audit covers utilization management (UM) of health care delivered in the
15  DOD medical centers (MEDCENs). UM is a program designed to ensure that
medical services are provided in a timely and cost-effective manner at the most
appropriate level of care. This audit topic was the result of a coordinated effort by
the Joint Audit Planning Group for Health Care and representatives from the
Office of the Assistant Secretary of Defense (Health Affairs) (OASD[HAI) and the
Military Surgeons General to develop TRICARE-related audit plans. (TRICARE
is DOD’Smanaged health care program.) OASD(HA) and Military Departments
selected UM as the number one priority for audit coverage. This audit was
performed as a joint effort by the Office of the Inspector General, DOD; Army
Audit Agency; Naval Audit Service; and Air Force Audit Agency.


Objectives and Conclusions

    The overall objective of this audit was to determine whether the 15 MEDCENs
had established an effective and efficient UM program. Exhibit A lists the
15 MEDCENs. We performed detailed analysis at six of the MEDCENs. Many
innovative practices were in place (see Exhibit B), and progress was made in
implementing UM as is evidenced by reductions from FY 1994 through FY 1996
in ambulatory visits (8.6 percent), average daily occupied bed days (20.7 percent),
average length of stay (days) (15 .Opercent), and inpatient dispositions* (6.7
percent). However, we found areas that need to be addressed before benefits from




lDisposition is the removal of a patient fkom a hospital’s census by discharge, transfer, death, or
other termination of inpatient care.
the UM program can be enhanced. Specific objectives, developed baaed on a
request for coverage from OMD(HA) and the Offices of the Surgeons General,
are shown below along with conclusions for each objective.


                Determine the status of Military Department implementation of
       Objective:
       OASD(HA) UM policy guidance.

      Conclusions:    The reductions from FY 1994 through FY 1996 in
      ambulatory visits, average daily occupied beds, average length of stay, and
      dispositions, demonstrate that progress was made in implementing UM
      policy. Five of the six MEDCENs visited were at least partially meeting all
      UM requirements. However, implementation varied among the
      MEDCENs. Implementation could be enhanced through policy revisions
      that (1) require consideration of cost when deciding to use contracted or
      in-house personnel and (2) increase the MEDCEN commander’s flexibility
      on how to use UM personnel. In addition, development of general staffing
      guidelines would help commanders in the early stages of implementing
      UM. Improving contract surveillance and reporting procedures would also
      enhance the benefits available from implementing UM. See the Finding for
      details on implementation.



      Objective:   Evaluate the controls that ensure UM does not have a negative
      effect on quality of care.

      Conclusions:    Controls were in place to monitor and compare the quality
      of care provided at the 15 MEDCENs. The primary control to monitor the
      quality of care delivered at MEDCENs is the Military Health System
      Performance Report Card. It was developed as a corporate level
      management tool that would measure MEDCEN performance on health
      care access, quality, utilization, and the health status of beneficiaries. This
      mechanism focuses on and sets standards for quality of care issues and
      allows for Comparisons of performance with various standards and between
      MEDCENs.



      Objective:  Determine if effective use was made of patient care assets
      made available by implementation of UM.

      Conclusions:   We could not determine if effective use was made of UM
      savings because information was not available to isolate the impact of UM
      from the other management initiatives such as capitation budgeting.


                                        ii
Additionally, General Accounting Office report number NSIAD-97-83BR,
“Defense Health Program: Future Costs Are Likely to Be Greater Than
Estimated,” February 2 1, 1997, stated that the OASDQLA) did not have a
formal methodology for estimating UM savings.

     DOD may not be able to realize UM savings comparable to the civilian
community despite the program enhancements that will be achieved from
policy revisions, stafhng guidelines, and improved contractor surveillance
and reporting requirements. To the extent that readiness requirements
exceed peacetime requirements, DOD cannot make staffing and
infrastructure reductions that could be made in the civilian community.
Until readiness requirements are defined, fkll UM savings may not be
realized. See the Finding for details on the limitations on UM savings.



Objective:     Review the management control program as it applies to UM.

Conclusions:   We identified material management control weaknesses as
defined by DOD Directive 5010.38, “Management Control (MC)
Program,” August 26, 1996, related to the implementation of UM at the six
MEDCENs visited, as discussed in the Finding. Controls did not ensure
UM costs were properly considered and contract surveillance and reporting
were adequate. The OASD(HA), the Surgeons General of the Military
Departments, and the audited MEDCENs did not provide coverage on UM
in their management control programs. Therefore, they did not identify the
control weaknesses discussed in this report. A copy of the report will be
provided to the senior official responsible for management controls in the
OASD(HA), Army, Navy, and Air Force.



Objective:     Determine the consistency of data reporting.
                                                                             ,
Conclusions:   We did not evaluate the consistency of health care data
reporting because such an objective would require signifkant audit
resources and would best be covered by a separate, dedicated audit.




                                   . ..
                                   ill
                            Section A
                      Genera/ Information
Background
                                 Audit Request

    The audit resulted from a coordinated effort by the Joint Audit Planning Croup
for Health Care, the Office of the Assistant Secretary of Defense (Health Affairs)
(OASD[HA]), and the Offices of the Surgeons General to develop TRICARE
audit plans. Attaming OASD(HA) targeted managed care utilization management
(UM) savings was designated the number one priority issue for audit coverage. A
point paper provided jointly by OASD(HA) and the Offices of the Surgeons
General identified four specific UM issues to be audited:

       l   military departments’ implementation of OASDQ-IA) policy guidance,
       l   guidelines/safeguards in place to ensure UM doesn’t negatively affect
           quality,
       l   effective use of patient care assets made available by implementation of
           UM, and
       l   consistency of data reporting.

    This audit covers implementation of policy guidance, quality
guidelines/safeguards, and use of savings made available by implementation of
UM.

     Although we concluded that DOD can enhance its UM program, information
was not available to identity the specific cost savings resulting from UM. The
OASD(HA) projected total Defense Health Program savings from UM of
5 percent, later revised to 7 percent, l?om FY 1997 through FY 2003. Due to
anticipated savings from UM, OASD(HA) reduced the Military Departments’
direct patient FY 1998 operation and maintenance budgets by 1.5 percent of the
total direct patient care cost. Direct patient care costs consist of operation and
maintenance and military personnel funds. The positive effects of UM on overall
Medical Center (MEDCEN) efficiency cannot be separated from the effects of
other management initiatives, such as capitation budgeting. Under capitation
budgeting, military treatment facilities receive a fixed amount of funding per capita
(beneficiary), creating an incentive to eliminate unnecessary workload. General
Accounting Office report number NSIAD-97-83BR, “Defense Health Program:
Future Costs Are Likely to Be Greater Than Estimated,” February 2 1, 1997, stated
that OASDQ-IA) did not have a formal methodology for estimating UM savings.
Because of the inability to isolate the effect of UM and the lack of a verifiable
methodology, we were not able to evaluate the savings targets or determine
whether the targets were attained.

    Also, we did not evaluate the consistency of health care data reporting because
such an objective would require significant audit resources and would best be
covered by a separate, dedicated audit. Health care data within the Military Health
System comes from a variety of automated systems, such as the Defense Medical
Information System, the Medical Expense and Pefiormance Reporting System, and
the Retrospective Case-Mix Analysis System. We did not evaluate the accuracy
and consistency of the data included in these sources, nor the input processes
associated with each source.

                                          lJM

    Assistant Secretary of Defense (Health Affairs) (ASD[HA])
Responsibilities. The responsibilities, functions, and authorities of the ASD(HA)
are contained in DOD Directive 5 136.1, “Assistant Secretary of Defense for Health
Affairs,” May 27, 1994. The ASD&IA), as the principal staff assistant and advisor
for all DOD health policies, programs, and activities, is responsible for the effective
execution of the Department’s medical mission. This mission includes providing
medical services and support to members of the Armed Forces, their dependents,
and others entitled to DOD medical care. In carrying out these responsibilities, the
ASD(HA) shall establish policies, procedures, and standards that govern DOD
medical programs and prepare a unified medical program and budget. However,
the ASD@-IA)may not direct a change in the structure of the chain of command
within a Military Department with respect to medical personnel.

    TRICARE. TRICARE is DOD’Smanaged health care program and includes
direct health care available through military treatment facilities and health care
provided by contract. TRICARE uses 7 managed care support contracts to
provide services that are not readily or economically available through the direct
care system for DOD’S 12 health care regions. The seven contracts, awarded for 5
years (1 year and 4 option years), are in various stages of implementation. All the
                                                                                          ,
contracts reflect basic core TRICARE requirements. In addition to the core
requirements, lead agents can add contract requirements in other areas, such as
UM. The lead agent functions as the focal point for health services and
collaborates with the other military treatment facility commanders in the region to
develop an integrated plan for the delivery of health care for their beneficiaries. In
seven regions, many of the MEDCENs use contractor personnel to perform UM.
The MEDCENs in five regions are performing UM in-house.

    UM. The OASD(HA) issued a memorandum, “Utilization Management (UM)
Activities in the Direct Care System under TRICARE,” November 23, 1994, that
established DOD policy on UM. The policy set forth standard UM practices, both

                                          2
in care that is purchased and care provided in the direct care system. UM consists
of prospective, concurrent, and retrospective reviews, as well as case management
and discharge planning (see Exhibit C). The goal of UM is to maximize
appropriate care and minimize or eliminate inappropriate care. This consistency in
decision making about when and where care should occur helps to ensure
uniformity of benefit and allows for comparing utilization patterns across military
treatment facilities and regions, and against national norms.

    MEDCEN commanders implement the OASD(HA) policy through regional
UM plans developed by TRICARE lead agents. MEDCENs are large hospitals
that provide a broad range of health care services, serve as referral centers within a
geographical area of responsibility, and conduct, as a minimum, a surgical graduate
medical education program. DOD has 15 MEDCENs. The UM policy allows the
lead agents to tailor UM plans to meet the specific needs of each region and
provide additional guidance to the MEDCENs, providing that the minimum policy
requirements are met. The MEDCENs can implement UM policy using
Government personnel or contractor UM personnel available through the
TRICARE managed care support contracts. In some regions, the TRICARE
contracts are not yet in effect; therefore, the MEDCENs had to implement the
policy using available Government personnel. TRICARE contracts will be
effective in all regions by the end of June 1998. Prior to TFUCARE, DOD
purchased care that could not be provided through direct care from the civilian
sector, primarily through the Office of the Civilian Health and Medical Program of
the Uniformed Services (CHAMPUS), an OASDQIA) activity.

Audit Scope and Methodology

    The audit reviewed the implementation of UM policy at the 15 DOD
MEDCENs. We performed the economy and efficiency audit in accordance with
generally accepted government auditing standards. We conducted our audit from
November 1996 through February 1998. We evaluated trends in performance and
cost data from FY 1994 through FY 1996.

                                                                                         i
   During the audit, we:

       l    reviewed applicable DOD guidance,
       ,*   sent UM questionnaires to the 15 DOD MEDCENs to obtain data on
            the status of UM, method of implementing UM procedures, and cost
            and workload statistics,
       l    selected a total of six MEDCENs (see Exhibit A) to review based on
            responses to the questionnaires. Our selection criteria included two
            MEDCENs each from the Army, Navy, and Air Force, with


                                          3
    representation of various stages of UM implementation. Also, we
    selected MEDCENs to obtain a variety of methods used to implement
    UM, including both Government and contract personnel,
l   obtained and analyzed cost data from the Medical Expense and
    Performance Reporting System and health care data from the
    Retrospective Case-Mix Analysis System. We did not validate this or
    other computer-processed data because such a validation would have
    required separate and signifkant audit efforts,
l   evaluated lead agent and MEDCEN guidance for compliance with DOD
    policy,
l   judgmentahy sampled 30 medical records at each of the selected
    MEDCENs to assess compliance with DOD, lead agent, and MEDCEN
    policy. We selected medical records for which OASD(HA) policy
    required UM review. The sample was not statistical and we did not
    attempt to project sample results,
l   evaluated contract requirements for compliance with DOD policy where
    UM procedures were performed by contract personnel,
l   evaluated contract surveillance procedures for UM services at the
    MEDCENs and lead agents. We also reviewed contractor performance
    for compliance with contract UM requirements, and
l   evaluated management controls over the implementation of UM.




                                4
                            Section B
           Finding and Recommendations
Finding



                                 Synopsis
     Although  MEDCENs have significantly reduced ambulatory visits (8.6
percent), average daily occupied bed days (20.7 percent), average length of stay
(15.0 percent), and inpatient dispositions (6.7 percent) from FY 1994 through
FY 1996, the implementation of UM varies among MEDCENs. Implementation
could be enhanced through policy revisions that require consideration of cost when
deciding to use contracted or in-house personnel for required UM reviews, and
that increase the MEDCEN commanders’ flexibility to shift prospective review
personnel to more beneficial areas. In addition, development of general stafIing
guidelines would help commanders in the early stages of implementing UM.
Improving contract surveillance and reporting procedures would also enhance the
benefits available from implementing UM. As a result of the varied
implementation, DOD did not realize maximum benefits of the UM program.
Moreover, DOD may not be able to realize full savings from the program because
of inherent readiness requirements.

                Discussion of Audit Results
    This section discusses four basic areas: (1) MEDCEN workload; (2) varied
implementation of OASD(HA) policy guidance; (3) potential enhancements
through policy revisions, staging guidelines, and improved contract surveillance
and contractor reporting requirements; and (4) limitations of savings achieved
through UM.
                                                                                     c


                              MEDCEN Workload

    From FY 1994 through FY 1996, the 15 MEDCENs significantly reduced the
number of ambulatory visits, average lengths of stay, dispositions, and occupied
bed days. Although UM was a factor in these reductions, data was not available
for us to determine the portion of the reductions that may be due to UM or other
management initiatives, such as cap&ion budgeting. Table 1 shows the change in
workload of the 15 MEDCENs. It is noteworthy that this reduction occurred
along with a reduction in the workload of health care purchased through the
TRICARE contractors or through CHAMPUS, as shown in Table 2.

                                         5
    Table 1. Operational Statistics for the 1S Military Health System MEDCENs
                            FY 1994 through FY 1996

                                                                         Difference
            Metrics                 FY 1994          FY 1996        &mount          percent

Ambulatory Visits                  13,OQ3,708      ll,Q82,949     (1,130,7SQ)           (8.8)
Average Daily Occupied Beds             3,641           2,888           (753)          (20.7)
Average Length of Stay                      4.88           4.15        (0.73)          (15.0)
Dispositions                         272,369          254,146        (18,223)           (8.7)
Average Case Mix index*                1.0985          1.0807        (0.0178)           (1.8)
Catchment Area Population           1,719,037       1,708,827         (12,210)          (0.7)
* Average Case Mix Index is a method of measuring the resources consumed in providing health
  care. Generally, the higher the average case mix index the more complex the care being




   Table 2. TRICAREICHAMPUS Workload in the 16 MEDCEN Catchment Areas
                         FY 1994 through FY 1996


        Metrics                  p, 1994           ml996           mount          percent

Ambulatory Visits                 289,589           211,500         (7Q,QQQ)          (26.9)
Dispositions                       28,574            20,318          (8,256)          (28.9)



    At 6 of the MEDCENs, we compared the average lengths of stay and cost in
FY 1994 and FY 1996 for 10 high volume diagnostic-related groups (DRGs) and 6
common clinical specialties (see Exhibit D) to determine the changes since UM
policy issuance. DRGs are classifications of diagnoses in which patients
demonstrate similar resource consumption and length-of-stay patterns. We
recognize that some UM procedures were in place at the MEDCENs before the
UM policy was formalized and improvements in the metrics had already begun.
The average length of stay for the 10 high-volume DRGs decreased in 53 of 60
(88 percent) instances reviewed, and the costs per DRG disposition decreased for
37 of 53 (70 percent) instances. Similarly, the average length of stay was reduced
in 35 of 36 (97 percent) clinical specialties reviewed, and the cost per clinical
disposition decreased in 23 of 35 (66 percent) clinical specialties. Although these
performance indicators show improvement, varied implementation of UM policy
prevented MEDCENs from realizing the full monetary benefits from UM.

                            Varied Implementation

   The six MEDCENs included in our review were at varying stages of
implementing the OASD(HA) UM policy. Table 3 shows the status of
implementation of the key elements of UM as required by OASD(HA) policy.
                                         6
        Although five of the six MEDCENs had at least partially met the policy
        requirements, implementation within prospective and concurrent reviews varied
        sign%cantly as discussed below.

                                          Table 3. UM Function

                            Prospective    Concurrent    Retrospective        Case         Discharge
MEDCEN                        Review        peview          Review         Management      Planning

Brooke Army
 Medical Center ”                P              P               E                F
William Beaumont
 Army Medical Center ”           P              P               F                F
Naval Medical Center
 Portsmouth 2/                   N              F               E                F
Naval Medical Center
 San Diego 21                    F              P               E                F              F
Keesler Medical Center ”         P              P               E                F              F
Wilford Hall
 Medical Center ”                P              P               E                F              F
11   Responsibility for UM of direct care was split between the contractor and in-house personnel.
Z    In-house personnel responsible for all UM of direct care.
E-   MEDCEN exceeded OASD(HA) policy requirements.
F-   MEDCEN fully implemented OASD(HA) policy requirements.
N-   MEDCEN did not perform UM function.
P-   MEDCEN partially implemented OASD(HA) policy requirements.


            Prospective Reviews.     Naval Medical Center @‘MC) San Diego fully
        complied with the OASDQ-IA) policy requirement to perform prospective reviews
        on adjunctive dental care (care where the primary diagnosis is not dental but
        results in a need for a dental procedure), cataracts, magnetic resonance imaging
        (MRI) procedures, mental health, and pregnancy. Prospective reviews were not
        being performed in accordance with 0ASDQ-I.A) policy at five of the six
        MEDCENs we visited. A prospective review determines whether the severity of a
        patient’s illness warrants an inpatient hospitalization or outpatient services.
        Prospective reviews reduce costs by avoiding unnecessary admissions and visits
        and help ensure appropriate care is provided.

           UM personnel at NMC Portsmouth focused their resources on the other UM
       functions and were not performing prospective reviews. The utilization review
       personnel had developed prospective review procedures and intended to
       implement the procedures concurrent with the TRICARE services contract. The
       contract became effective May 1,1998, after the audit field work was completed.
       We did not verify whether UM personnel began performing prospective reviews
       afterMay 1,1998.
          Utilization review personnel at Brooke Army Medical Center (AMC), Keesler
       Medical Center (MC), and Wtiord Hall MC were not performing prospective
                                                    7
reviews for non-CHAMPUS eligible patients. These patients include active duty,
civilian emergency, and MEDICARE-eligible patients. At Brooke AMC, William
Beaumont AMC, Keesler MC, and Wilford Hall MC, we found instances in which
contractor-required prospective reviews for CHAMPUS eligible patients were not
performed by the contractor. In-house personnel at Keesler MC were duplicating
contractor prospective reviews on mental health inpatients. We brought the
duplication to the attention of MEDCEN personnel during our on-site exit
briefings.

    Concurrent Reviews. Although utilization review personnel performed
concurrent reviews at each of the six MEDCENs, the reviews were not performed
in accordance with OASDQ-IA) policy at five of the six MEDCENs. NMC
Portsmouth lily complied with the OASD(I3.A) policy to perform concurrent
reviews to evaluate care while it was being provided. Concurrent reviews
determine whether continued treatment is needed and ensure that the appropriate
care is being provided.

    UM personnel at Brooke AMC did not perform concurrent reviews on
non-CHAMPUS eligible patients; they focused most of their efforts on contract
surveillance. UM personnel at San Diego NMC reviewed the admitting diagnosis
for each inpatient admission, but were performing complete chart reviews only for
those cases with complex or relatively long length of stay diagnoses. UM
personnel at Wilford Hall MC performed concurrent reviews on non-CHAMPUS
eligible patients for only those admissions that had relatively long length of stay
diagnoses.

    Contractor utilization review personnel at William Beaumont AMC began
performing concurrent reviews on all medicaVsurgical cases but, contrary to the
UM policy, later limited the reviews to only those cases subject to prospective
reviews. This resulted in the number of concurrent reviews decreasing from 400 in
one month to 70 in the next month. At Keesler MC, the contractor was not
performing concurrent reviews on mental health outpatients as required.

    In-house UM personnel duplicated concurrent reviews done by the contractor
                                                                                      i
for inpatient mental health patients at Keesler MC and for medictisurgical
inpatients at William Beaumont AMC. We brought the duplication to the attention
of personnel at each MEDCEN during our on-site exit briefings.

    Retrospective Reviews, Case Management, and Discharge Planning. All
six MEDCENs either fully met or exceeded policy requirements for retrospective
reviews, case management, and discharge planning.




                                         8
                             Potential Enhancements

    Although UM implementation currently varies, it could be enhanced through
policy revisions that require consideration of cost when deciding to use contracted
or in-house personnel, and that increase the MEDCEN commanders’. flexibility on
how to use prospective review personnel. In addition, general sta5g guidelines
would assist commanders in developing UM programs. Improving contract
surveillance and reporting requirements would also increase the benefits available
from implementing UM.

Policv Revisions

     Cost Estimate. The UM policy did not require that cost estimates be prepared
when deciding whether to obtain UM services through contract or in-house
sources. Without the preparation of cost estimates, the MEDCENs could not
determine the most cost-effective method of obtaining UM services. In a June
1994 memorandum to the Commander of Wtiord Hall MC, the ASD(HA) stated
using contractor-furnished UM services was “the most cost effective and efficient
method for serving the needs of Region Six and the military communities.” This
statement suggests that analysis wasn’t necessary.

    The 15 MEDCENs used 3 different approaches to providing UM services:

        l   use of in-house personnel,
        0   region-wide contract support for UM at all military treatment facilities,
            and
        l   specific contract requirements designed for each military treatment
            facility.

     For the six MEDCENs visited, none of the five lead agents attempted to
quantify the in-house cost to perform UM (Brooke AMC and Wtiord Hall MC are
in the same region and therefore are served by the same lead agent). Only two of
the lead agents (Southwest and Central Regions) attempted to estimate contract
costs but their estimates were not accurate. With the implementation of
TRICARE, lead agents and militaty treatment facility commanders will play a
larger role in managing the total health care budget. Cognizance over costs
associated with both in-house and contract options is necessary for decision
making.

   We believe policy should be revised to require that cost be one consideration
when deciding whether to implement UM with in-house or contractor personnel.
Additionally, such a requirement will necessitate clear delineation of responsibility.



                                           9
It was not clear from our discussions with various administrators at different levels
who would be responsible for preparing estimates and conducting cost analyses for
additional contract requirements. For example:

       l   TRICARE Support Office personnel told us that lead agents should be
           responsible for the added requirements and should estimate the costs
           and conduct the analysis,
       l   lead agent personnel told us that the MEDCEN commanders should
           estimate the costs, and
       l   MEDCEN personnel told us that they didn’t have the resources or the
           expertise to conduct the analysis; it was a lead agent responsibility.

    We believe lead agents have a clear responsibility to prepare cost estimates for
lead agent-specific requirements. Contracting Officers at the TRICARE Support
Office have a responsibility to review the estimates. MEDCEN commanders have
the responsibility to know what these activities cost and how they compare to the
costs of performing the activities in-house.

    Flexibility. The OASD(HA) policy did not provide the MEDCEN
commanders with the flexibility necessary to shift personnel performing required
prospective reviews to procedures where prospective reviews would be most
effective. The policy requires prospective reviews for specific procedures, such as
adjunctive dental care, cataract removals, mental health, MRIs, and pregnancy
excluding active labor and cesarean section. However, these procedures may not
be the most appropriate procedures because the workload and local procedures
vary among the MEDCENs. MEDCEN personnel frequently expressed concerns
over the need and cost effectiveness of performing all the mandated prospective
reviews.

     Prospective reviews for MRIs are a good example of why flexibility is needed
in the UM policy. NMC San Diego prepared an economic analysis that showed it
was not cost effective to do prospective reviews on all MRIs. The analysis
showed that about $4,000 would be saved annually ifMRI procedures that failed
the prospective review were not performed, but the cost of reviewing all MRI
procedures was about $39,000 annually. The MEDCEN would experience a net
savings of about $35,000 by not performing the reviews, allowing the UM
resources to shift to other areas needing attention. However, William Beaumont
AMC performed a similar analysis and found that it was more cost effective for
them to continue with the prospective reviews. We reviewed each analysis and
agreed with the conclusions. The contradictory results from the MEDCEN studies
indicate the need to customize the application of UM to each site. Additionally,
Wtiord Hall MC UM personnel stated they did a cost analysis and determined it
was not cost effective to perform prospective reviews for non-CHAMPUS eligible
patients. We requested a copy of the analysis but it could not be located.

                                         10
    The UM policy should provide flexibility to ensure that prospective reviews are
concentrated on the procedures where the reviews are needed. In the initial stages
of UM, high volume and high cost procedures are probably where prospective
reviews are needed the most. However, as practice patterns change and the UM
program matures, prospective review procedures need to be refined to meet local
requirements.

General Stafline Guidelines

    The audit showed that the stafIing of UM functions varied significantly among
the six MEDCENs reviewed. We determined the number of personnel at the six
MEDCENs spending at least 25 percent or more of their time performing UM
functions. We converted the total time personnel spend performing UM into full-
time equivalents (FTEs).

    A comparison showed a significant variation in the number of personnel
performing the UM functions at the similar size MEDCENs. For example, at
NMC San Diego and NMC Portsmouth, where all UM functions were performed
in-house, NMC San Diego had 24.7 and NMC Portsmouth had 10.7 FTEs
performing discharge planning. At Brooke AMC and Wtiord Hall MC, with the
same UM functions under contract, Brooke AMC had 1.5 FTEs performing
contract surveillance and Wilford Hall MC had 3.0 FTEs. At William
Beaumont AMC and Keesler MC, 3.4 FTEs from the UM in-house staffwere
dedicated to performing prospective, concurrent, and retrospective reviews.
However, William Beaumont AMC had contracted out all prospective, concurrent,
and retrospective reviews. In contrast, Keesler MC in-house personnel were
responsible for doing the reviews for non-CHAMPUS eligible patients.

     The primary cost driver in performing UM was personnel costs. Therefore,
when estimating in-house UM cost, it is important that MEDCENs have some
basis for estimating personnel requirements. General stafIing guidelines would
provide a starting point for developing cost estimates necessary for determining
the best option of providing UM services. General sta&g guidelines would also
help to ensure MEDCENs dedicate sufbcient personnel to ensure the UM policy is
fully implemented.

Contract Surveillance and Contractor ReDortine Reauirements

    Implementation of UM could be enhanced by improving contract surveillance
plans and by coordinating the development of reporting and data requirements
levied on contractors. At Brooke AMC, William Beaumont AMC, Keesler MC,
and Wtiord Hall MC, many UM services were included in TRICARE contracts.

    Surveillance Plans. Surveillance plans at the four MEDCENs above did not
contain sufIicient methodology or delineate responsibilities for reviewing UM
performed under contract. For example, the surveillance plan in the Southwest
                                        11
Region where Brooke AMC is located simply identified all the appropriate UM
line items in the contract for review. The plan did not provide a method for
conducting surveillance but simply stated “check for compliance.” We believe at a
minimum, surveillance plans should specify the sampling technique, size,
frequency, and whether the sample must be statistically valid. Plans at the four
MEDCENs were also not specific as to who would perform the sample. Although
lead agents stated MEDCEN personnel had to conduct most of the surveillance,
this was not always practical because in some regions contractor personnel
performing prospective and case management reviews were not located near the
MEDCEN. The execution of definitive surveillance plans would have identified
the problems discussed in the varied implementation section of this report
regarding contractors not performing some prospective reviews and concurrent
reviews.

     Reporting Requirements. The UM data and reports provided by contractors
at three of the four MEDCENs frequently did not provide MEDCEN management
with the information needed to monitor UM results and affect change. Lead
agents and MEDCEN personnel did not have a good understanding of the
information needed to monitor UM prior to including UM data and reporting
requirements in TRJCARE contracts. For example, at one MEDCEN, the
contracting officer’s technical representative showed us a cabinet full of contractor
reports, many of which were unopened. The representative told us that managers
did not have any use for the reports, but because the contract required the reports,
the contractor kept providing them. In another region, the Government asked the
contractor to produce 145 separate reports related to UM and quality management
activities. Atter the first year of the contract, the lead agent identified 67 reports
that could be deleted.

     Contractors, lead agents, and MEDCEN UM personnel were aware that much
of the UM data and reports being provided were not useful and were making
efforts to correct this problem. Their efforts, however, were not well coordinated.
The Gulf South, Southwest, and Central Regions were involved in separate efforts
to develop a “data warehouse” which would identity the necessary data elements
and give lead agents and medical treatment facilities the ability to access all
pertinent data in se&designed reporting formats. Lead agent personnel in the Gulf
South Region stated they were aware of a similar &or-t ongoing in the Southwest
Region but the two regions were not coordinating their efforts. Due to the
duplication of efforts to develop reporting requirements for UM performed under
contract, a Joint Service Working Group coordinated by the lead agents is needed
in this area.

              Limitations on Savings Achieved Through UAU

   Program enhancements achieved by policy revisions, staf5ng guidelines, and
improved contract surveillance and contractor reporting requirements will provide
DOD with opportunities to increase the effectiveness and cost savings associated
                                          12
with the UM program. However, even with the program enhancements, the
Military Health System may not be able to realize the full UM savings available in
the civilian community because of readiness requirements. Although there was a
significant reduction in utilization at the 15 MEDCENs from FY 1994 through
FY 1996 (see Table l), Table 4 shows there was not a corresponding decrease in
operating costs. For example, although the average length of stay decreased
15 percent and the number of dispositions decreased by 6.7 percent, the cost per
disposition only decreased by 0.8 percent after adjustment for inflation.

             Table 4. Coat Data for the IS Military Health System MEDCENs
                               FY 1994 through FY 1996

                                                                                    Difference
           Metrics                 0FY 1994              FY 1996                 Amount        Percent

Cost per Ambulatory Visit             $100.05                 $114.35                $14.30        14.3
Cost per Bed Day                    $1,085.23             $1,266.86                 $181.63        16.7
Cost per Disposition                $5295.18              $5,254.77              (640.41)          (0.8)
Total Operating Costs         $3,515,761,247         $3,411,829,847       ($103,931,400)           (3.0)
l   FY 1994 costs are inflated to FY 1996 dollars for comparability.

    In the civilian sector, to realiie the savings associated with workload
reductions of the magnitude experienced by the MEDCENs, hospital stafling
would be reduced and possibly some hospitals would be closed. In DOD, staffing
and infrastructure must be maintained to support contingency requirements, even if
peacetime requirements are less. We performed a detailed analysis of staffing and
selected infrastructure cost accounts at six MEDCENs to determine why the
workload reductions did not result in comparable cost reductions.

  MEDCEN Staffhg. Table 5 shows the workload decreased at the six
MEDCENs from FY 1994 through FY 1996.

              Table 6. Operational Statistics for the Six MEDCENs Visited
                               FY 1994 through FY 1996

                                                                        Difference
              Metrics                FY 1994        p/ 1996        Amount          Percent

Ambulatory Visits                   6300,838        5,826,093      (474,745)              (7.5)
Average Daily Occupied Beds             1,647           1,263            (384)           (23.3)
Average Length of Stay                    4.73           3.70           (1.03)           (21.7)
Dispositions                          127,084        124,639          (2,445)             (1 .Q)

    Although the workload decreased, total military staf5ng increased by 4 percent
(547) and civilian staffing decreased by 6 percent (359) for a net stafkrg increase
of 1 percent (188) (see Exhibit E, Table 1).


                                               13
    Exhibit E (Table 2) further shows that military stafhng increased between
4 percent and 11 percent at four of the six MEDCENs and only the Army
MEDCENs experienced a reduction in military stat5ng. The Army MEDCEN
with the greatest reduction in military staGng -- 237 (20 percent) -- also
experienced reductions in cost per disposition and total operating costs of 12 and
6 percent, respectively. This was the only MEDCEN with a reduction in both
categories. This does not imply that the Army MEDCEN was more cost effective
in providing health care. It is simply intended to highlight the relationship between
&fling and cost reductions.

    Detailed analysis of FY 1996 operating costs disclosed that military salaries
ranged from 41 to 61 percent of the total budgets at the six MEDCENs, as shown
in Table 6.

  Table 6. Summary of FY 1996 Military and Operation and Maintenance Budgets

                                 ~ilitarv Pav         ODeration and Maintenance
         MEDCEN               Fount         Percent     mount        percent   Total Budaet


Brooke AMC               $ 99,007,029        43.9     $126,242,597     56.1    $ 225,249,626
William Beaumont AMC          62,243,916     43.5       80,977,915     56.5       143,221,831
NMC Portsmouth            149,793,ooo        40.8      217,338,OOO    59.2        367,131,OOO
NMC San Diego             153,675,OOO        41.6      215,931,ooo    58.4        369,606,OOO
Keesler MC                    75.949.715     60.8       48,877,OOO    39.2        124,826,715
Wilfotd Hall MC           152,700,211        51 .l     146,232,OOO    48.9       298,932,211
 Total                   $693,368,871        46.4     $638,698,612    64.6    $1,628,967,363


    Therefore, it is difkult to significantly reduce MEDCEN operating costs
without decreasing military medical stafling. It is especially diflicult to reduce
operating costs when workload is reducing but stafkg is increasing. Discussions
with Naval MEDCEN personnel disclosed the stafIing increases at Naval
MEDCENs were attributable in part to hospital closures and downsizing during
the FYs 1993 and 1995 Base Realignment and Closure. For example, when one
Naval MEDCEN was closed during Base Realignment and Closure 1995, military                      ,
medical personnel as well as medical training programs were reassigned to other
Naval MEDCENs.

    Infrastructure   Costs.
                   Table 7. Infrastructure Costs at MEDCENs Visited

                                                                           Difference
                                  FY 1994            JV 1996
                                 ExDenses*          ExDenses        mount          Percent

Housekeeping Contract            $1 Q&IQ,406        $22,241,585   $ 2,792,179            14.4
Laundry Setvice                    6,486,279          5,830,069       (656,210)         (10.1)
Minor Construction                 5,977,165         13,705,532      7,728,367      129.3
Patient Food Service              20,666,164         15,630,380     (5,035,764)         (24.4)
Real Property Maintenance         15,330,216         21,458,703      6,128,487          40.0
Utilities                         20,155,535         19,330,625       (824,910)          (4.1)
    Total                        $66,064,76S        $96,196,894   $iO,lS2,129            11.1
l   FY 1994 expenses were inflated to FY 1996 dollars for comparability.

    After adjusting for inflation, costs directly related to patient care decreased as
bed occupancy and the associated workload decreased. For example, patient food
services and laundry costs were reduced by 24 and 10 percent, respectively.
However, costs for real property maintenance, minor construction, and
housekeeping increased by 40, 129, and 14 percent, respectively, and utilities costs
decreased by only 4 percent. During FY 1996, housekeeping, minor construction,
real property maintenance, and utilities, comprised from 3 percent to 6 percent of
the operating costs at the six MEDCENs. Because stafhng and infrastructure
combined cost composes between 46 percent and 64 percent of the six
MEDCENs’ operating costs, significant UM cost savings will not be recognized
without cuts in stat&g and infrastructure. Accordingly, we do not believe DOD
should base budget reductions on UM savings until readiness requirements are well
defined.

     733 Study. DOD has a study ongoing of its medical readiness requirements.
Section 733 of the National Defense Authorization Act for FYs 1992 and 1993
directed DOD to conduct an analysis of the size of the military medical system.
One objective of the study was to determine the size and composition of the
medical system needed to support the armed forces during a war or lesser conflict
                                                                                                 i
in the post-Cold War era. A second objective was to determine what adjustments
should be made to the medical system to enhance the cost effectiveness of
peacetime health care. Classified and unclassified versions of the study were
published in April 1994.

    During Congressional testimony in April 1994, the Under Secretaty of Defense
(Comptroller), Program Analysis and Evaluation Directorate, summarized the
unclassified results of the 733 study. The study concluded that to maintain an
adequate training, sustainment, and rotational base for contingencies, DOD needed



                                               15
6,300 active duty physicians and 9,000 beds in the Continental United States. This
is about 50 percent of the active duty physicians and one-third of the military
treatment facilities’ bed capacity programmed for FY 1999.

     The Military Departments’ Surgeons General strongly disagreed with the
physician strength figures in the 733 study and requested a follow-on study.
 Specifically, the Surgeons General believed the 733 study understated
 augmentation requirements and casualty rates. A follow-on study being performed
by a team including members from the Surgeons General and chaired by the Under
 Secretary of Defense (Comptroller), Program Analysis and Evaluation Directorate,
was scheduled to be completed by March 1996. As of April 1998, this follow-on
study had not been completed. An official in the Office of the Under Secretary of
Defense (Comptroller), Program Analysis and Evaluation Directorate, stated that
reaching agreement on the total number and specialty mixture of physicians needed
for readiness was still the main obstacle to completing the follow-on study. The
official also stated that there is general agreement that DOD has excess capacity in
the number of physicians and beds needed for readiness. However, the magnitude
of the excess has not been determined. Further evidence that capacity exceeds
peacetime requirements is shown in the number of unoccupied operating beds at
the six MEDCENs. Operating beds are hospital beds that are set up with
supporting equipment, staff, and space to provide all aspects of patient care. The
six MEDCENs averaged only a 58 percent bed occupancy rate during FY 1996,
and two had a bed occupancy rate of less than 50 percent. Maintaining and
staffing beds that are not utilized is very cost inefficient. We were advised that
there were reductions in operating and occupied beds during FY 1997, but
complete FY 1997 data was not available at the time of our audit. We recognize
that readiness requirements must be determined before operating beds can be
reduced.

                              Management Action

    The UM policy analyst at OASD(HA) recognized that the policy needed
revising and has been revising the UM policy since 1995. We reviewed a draft
revision in September 1997. This draft, prepared in coordination with Military
Department personnel, requires prospective reviews to be focused on selected high
cost, high volume, and problem DRG categories. In addition, this draft policy
provides the suggested DRG categories to use as initial sources for the prospective
reviews, and further suggests that the categories be modified as needed. We
believe the changes proposed in the draft policy provide the flexibility needed at
the local level to focus prospective reviews where most beneficial and appropriate.
The draft policy does not require the preparation of cost estimates for performing
UM in-house and under contract which we believe are needed for determining the
most cost-effective method of performing UM. Subsequent to our review, revised
policy was issued that incorporated the draft provisions discussed above.


                                         16
    Recommendations                      for Corrective Actions
We recommend that the Assistant Secretary of Defense (Health Affairs):

    1. Issue revised policy that includes the increased flexibility for prospective
        reviews as well as:

       a. requires cost estimates for the alternatives of implementing utilization
          management prior to making decisions on how to obtain utilization
          management services,

       b. delineates responsibilities for performing the cost estimate,

       c. requires that surveillance plans, for monitoring utilization management
          performed under contract, specify the sampling technique, size,
          frequency and whether the sample must be statistically valid, and

       d. delineates responsibilities for developing surveillance plans.

   2. Chair a Joint Service Working Group to coordinate the development of

       a. general stat&g guidelines for performing utilization management in-
          house, and

       b. reporting requirements for utilization management performed under
          contract.



           Management                Comments Required
The Assistant Secretary of Defense (Health AfTairs) did not comment on a draft of
this report. We request that the Assistant Secretary provide comments on the final
report by July 22, 1998.




                                          17
                           Exhibit A
                           DOD MEDCENs

The following 15 DOD medical treatment facilities are identified as MEDCENs.


Brooke AMC, Fort Sam Houston, Texas*
Eisenhower AMC, Fort Gordon, Georgia
Madigan AMC, Fort Lewis, Washington
Tripler AMC, Fort Shatter, Hawaii
Walter Reed AMC, Washington, DC
William Beaumont AMC, Fort Bliss, Texas*
Womack AMC, Fort Bragg, North Carolina



National NMC, Bethesda, Maryland
NMC Portsmouth, Portsmouth, Viiginia*
NMC San Diego, San Diego, California*


    Force
David Grant      Travis Air Force Base,
Keesler MC, Keesler     Force Base, Mississippi*
Malcolm        MC, Andrews       Force Base,
Wtiord Hall      Lackland Air Force Base,




                                        19
                             Exhibit B
                            UM innovations
    Ideas, practices, and innovative techniques need to be shared DOD-wide.
During our review, we noted the following “best practices” that if shared would
assist the MEDCENs in implementing UM and helping beneficiaries obtain better
health.

       l   UM Committees.      Our review showed that 10 of 15 MEDCENs
           established UM Committees. The committees identified and reported
           clinics that were not adhering to Inter@34 Inc. criteria. The
           committee meetings discussed specific medical procedures that were
           not meeting InterQual, Inc. criteria and how the clinics could improve
           health care practices, thus reducing the number of failed reviews.
           InterQual, Inc. criteria provides medical guidelines for patient care,
           such as length of stay standards and minimum admission requirements
           for specific medical diagnoses.

       l   Physician Advisor Program.     NMC San Diego initiated a physician
           advisor program that had senior stafTphysicians performing second
           level reviews of cases which did not meet InterQual, Inc. prospective,
           concurrent, and retrospective review criteria during the first level
           review. Each medical department selected a senior physician to be the
           physician advisor. The physician advisor received specific
           InterQual, Inc. training to review those cases that did not pass first
           level review. The determinations made by the physician advisors can
           only be overruled by the MEDCEN Commander. Performing second
           level reviews with physician advisors who are senior staff physicians
           appears to be an effective way of changing provider practices. The
           providers are more likely to follow the practices outlined by a senior
           staffphysician than the practices outlined by a physician independent of
           the MEDCEN.

      l    Avoidable Bed Day Reports.      Brooke AMC, NMC Portsmouth,
           NMC San Diego, and Wtiord Hall MC were preparing avoidable bed
           day reports. This report, based on the results of UM reviews, identifies
           inappropriate admissions or continued stays and the resultant number of
           avoidable bed days. The report educates providers and shows them the
           positive benefits of UM. NMC San Diego reduced its average monthly
           avoidable bed days from 117 days in Fy 1995 to 76 days in PY 1997
           through the use of this report.



                                        20
     Exhibit B. UM Innovations (Continued)

                   Units. Brooke AMC, NMC Portsmouth, and NMC
San Diego used medical holding units to house patients who do not
require acute care, but for reasons unique to DOD health care, the
patients cannot be discharged from MEDCENs. The medical holding
unit provides temporary lodging and can provide subsistence and
minimal nursing care. The patient essentially takes care of his/her own
basic needs and the MEDCEN expends less resources than for a patient
requiring acute care. An example of this situation is patients who
arrive and depart on medical evacuation flights. The MBDCEN has
limited control over patient arrivals and departures because of the
medical evacuation flight schedule. Brooke AMC maintained data that
showed it incurred an average of 2 12 avoidable beddays per month




                       on approximately 200 patients a month on an
outpatient basis. The majority of these patients were previously


                             91
         Exhibit B. UM Innovations (Continued)

    admitted to the MEDCEN. The only time a patient is admitted as an
    inpatient is when the patient is receiving other treatments or blood
    transfusions.

l   Home Intravenous Antibiotics. NMC Portsmouth administers
    intravenous antibiotics on an outpatient basis or in the home for a select
    patient population. NMC Portsmouth personnel stated that they
    avoided 1,447 beddays in 1996 with an estimated savings of about
    $2.2 million.

l   Self Care and Health Classes. At Brooke AMC, a registered nurse
    held classes twice a month to provide beneficiaries with information on
    improving their health. Attendees were provided a reference volume
    called “Taking Care of Yourself’ that contains guidelines to avoid
    unnecessary visits to the emergency room and health clinics. Attendees
    were also provided a personalized identification card that was used to
    track attendance. After 1 year, Brooke AMC personnel reported that
    beneficiaries who attended the classes averaged 3.4 fewer visits to the
    emergency room and health clinics than beneficiaries who did not
    attend the class.




                                  22
                             Exhibit C
                             Uhf Procedures
    Utilization Review. Utilization Review is a systematic evaluation of the
necessity, appropriateness, and efficiency of the use of health care services,
procedures, and facilities. The types of reviews are categorized based on when
they are performed.

       l   ProsDective. A prospective review determines whether the severity of
           a patient’s illness warrants an inpatient hospitalization or outpatient
           services. The policy requires prospective reviews for the following
           inpatient treatments:
              - adjunctive dental care,
              - cataracts,
              - mental health, and
              - pregnancy excluding active labor or scheduled cesarean section.


           In addition, the prospective reviews are required for the following
           outpatient treatments to determine if outpatient treatment is required:

              - adjunctive dental care,
              - cataracts,
              - MRI procedures, and
              - all mental health (subsequent to eighth visit).


       l   Concurrent. A concurrent review evaluates care while it is being
           provided. Inpatient concurrent review consists of three separate
           components:

              An admission review is conducted within 24 hours of admission to
              verify the appropriateness and medical necessity of the
              hospitalization. Documentation in the medical record must justify
              the admission and show a correlation between the necessity for
              hospitalization and the plan of care.

              A continued stay review is conducted regularly throughout a
              patient’s hospitalization to assess the patient’s need for continued
              inpatient treatment.

                                          23
                 Exhibit C. UM Procedures (Continued)

               A discharge review is conducted to ensure patients are discharged
               only when they are medically stable. Procedures will also include
               provisions for identifying beneficiaries for whom case management
               services (see definition below) would be appropriate.

           Outpatient concurrent review procedures should include provisions to
           identify beneficiaries for whom case management services would be
           appropriate.

       l   RetrosDective. A retrospective review takes place after a patient is
           discharged, or after outpatient treatment is provided, to determine
           trends and patterns in either under-utilization or over-utilization of
           resources. It also is a performance review of the UM process. The
           policy requires quarterly focused reviews be conducted on at least a 1
           percent sample of medical records. The focused reviews should assess
           the accuracy of information provided during the prospective review,
           determine the medical necessity and quality of care provided, and
           validate the review determinations made by the review staff The lead
           agent is responsible for determining the sample criteria.

    The UM policy requires that InterQual, Inc. criteria be used for medical and
surgical care reviews, and Health Management Strategies International criteria be
used for mental health care reviews. The criteria are published by commercial
enterprises and widely used in the civilian sector.

    Each type of review has two levels of consideration. First level review is a
screening process that determines the medical necessity and appropriateness of
care. The first level review must use the approved criteria, and all cases that do
not meet the criteria are required to undergo a second level review. The second
level review determines the medical necessity of care based on the medical
expertise of the reviewer. The decision of the second level review is limited to
either approving or denying the care and the decision must be documented.             i

    DOD policy established minimum qualifications for personnel involved in UM
processes. The policy requires first level reviewers to be physicians, certified
physician assistants, or registered nurses. Second level reviewers must be licensed
and board certified physicians with an active practice in the major clinical area
being reviewed.

    Case Management. Case management is a collaborative process that
assesses, coordinates, evaluates, implements, monitors, and plans options and
services to meet a patient’s complex health needs through communication and
available resources to promote quality cost-effective outcomes. Identification of

                                         24
                 Exhibit C. UM Procedures (Continued)

candidates for case management and referrals for case management services can
originate from any source. Lead agents are responsible for establishing a case
management process.

    The policy requires case managers to be licensed registered nurses and/or
licensed social workers. Case managers must have at least 2 years clinical
experience in the specialty for those patients being case managed, or quality by
DOD regulation as advance practice nurses in the appropriate specialty.

    The policy requires the following types of cases be case managed:

        l   bone marrow transplant patients,
        l   head trauma,
       l    Human Immunodeficiency Vis (HIV-AIDS),
       l    major burns,
       0    neoplasms,
        l   newborns requiring intensive care unit services, and
       l    spinal cord injuries.

    Discharge Planning. Discharge planning is a process to decrease or eliminate
barriers that disrupt patients’ timely discharge from the hospital, or release from
care, and facilitate their smooth transition into the post-discharge environment.
The policy requires that the UM process will incorporate mechanisms to ensure
that planning for patient discharge is initiated as soon as possible in the course of
treatment. The lead agent is responsible for specifying in the UM plan how the
discharge process will relate to the case management component.




                                                                                        ,




                                         25
                         Exhibit D
    DRGs and Clinical Specialties           Reviewed




Back and Neck
Bronchitis and Asthma
Chest Pain
Circulatory Disorder
Hernia
Knee Procedures
Lens Procedures Wth or Without Vitrectomy
Normal Newborns
Uterus and Adnexa Procedures
Vaginal Delivery



6 MEDCEN Clinical Snecialties Reviewed

Cardiology
General Surgery
Gynecology
Internal Medicine
Obstetrics
Orthopedics




                                     26
                            Exhibit E
                      Summary of Staffing
                  at the Six MEDCENs Vkited

                            Table 1. Total Staffing

                                                             Difference
                         JV 1994      fll996             mount        percent


       Officer            5,073         5,220             147             3
       Enlisted           8,538         8,938             400             5
        Total Military   13,611       14,1S8              847             4

       Civilian           6,237         5,878             WQ)            (6)

          Total          19,848       20,036              188             1




                            Table 2. Military Staffing

                                                               Difference
          MEDCEN         FY 1994        N      1996        Amount      percent


Brooke AMC                1,619          1,512              (107)         0
William Beaumont AMC      1,200              963            (237)        (20)
NMC Portsmouth            2,850          3,150                  300       11
NMC San Diego             3,236          3,536                  300        9
Keesler MC                1,647          1,707                   60        4
Wilford Hall MC           3,059          3,290                  231        a

 TOW                     13,611        14,168                   c47        4     ,




                                        21
                             Exhibit F
                        Report Distribution

                       Office of the Secretary of Defense

Under Secretary of Defense (Comptroller)
    Deputy Chief Financial Officer, Accounting Policy Directorate
    Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Health A&irs)
Assistant Secretary of Defense (Public AfGirs)
Director, Defense-Logistics Studies Information Exchange



                            Department of the Army

Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army



                            Department of the Navy

Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Superintendent, Naval Post Graduate School




                          Department of the Air Force

Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force




                                        28
              Exhibit F. Report Distribution (Continued)


                          Other Defense Orxanizations

Director, Defense Contract Audit Agency
Director, National Security Agency
    Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency



             Non-Defense Federal Orpanizations and Individuals

Office of Management and Budget
General Accounting Office
    National Security and International Affairs Division
        Technical Information Center
    Health, Education, and Human Services

Chairman and ranking minority member of each of the following congressional
   committees and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Afkirs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and
      Technology, Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal
      Justice, Committee on Government Reform and Oversight
   House Committee on National Security




                                         29
                        Audit Team Members


This report was prepared jointly by the Readiness and Logistics Support Directorate,
Office of the Assistant Inspector General for Auditing, DOD; the Army Audit Agency; the
Naval Audit Service; and the Air Force Audit Agency. The following personnel
contributed to this report.

Shelton R. Young             Office of the Assistant Inspector   General for Auditing, DOD
Raymond D. Kidd              Office of the Assistant Inspector   General for Auditing, DOD
Michael A. Joseph            Office of the Assistant Inspector   General for Auditing, DOD
Jonathan T. Kleinwaks        Naval Audit Service
Barry Lipton                 Army Audit Agency
Alf?ed J. Massey             Air Force Audit Agency
James I. Austwick            Army Audit Agency
Sanford W. Tomlin            Office of the Assistant Inspector   General for Auditing, DOD
LTC (S) Ronald E. Palmer     United States Air Force
Martin D. Cain               Air Force Audit Agency
Gary G. Caples               Air Force Audit Agency
Carolyn D. Chisholm          Naval Audit Service
I. Eugene Etheridge          Office of the Assistant Inspector   General for Auditing, DOD
James A. O’Connell           Office of the Assistant Inspector   General for Auditing, DOD
Reysdelle R St. John         Army Audit Agency
Robert T. Briggs             Office of the Assistant Inspector   General for Auditing, DOD
Gary J. Garland              Army Audit Agency
G. Paul Johnson              Office of the Assistant Inspector   General for Auditing, DOD
Clifton A Kirby              Army Audit Agency
Annette D. Williams          Army Audit Agency
Sharon D. Shiver             Office of the Assistant Secretary   of Defense (Health Affairs)
